  STATUS REPORT ON FAA’S
OPERATIONAL EVOLUTION PLAN
    Federal Aviation Administration

     Report Number: AV-2003-048
      Date Issued: July 23, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Status Report on FAA’s Operational               Date:    July 23, 2003
           Evolution Plan
           AV-2003-048

  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-10
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           We are providing you with the results of our review of the Federal Aviation
           Administration’s (FAA) Operational Evolution Plan (OEP). The Chairman and
           Ranking Member of the House Committee on Transportation and Infrastructure
           asked us to develop a status report and observations on how to move forward on
           the OEP. As agreed with their offices, we focused on 12 major initiatives in the
           Plan, which include new runways, new technologies, and air traffic procedures.
           We selected these projects based on discussions with FAA and industry on their
           potential to increase capacity of the National Airspace System.

           We periodically met with the Associate Administrator for Research and
           Acquisitions (who is responsible for the OEP) and discussed our observations on
           the Plan. We provided FAA a discussion draft report, and on June 18, 2003, we
           met with the Associate Administrator for Research and Acquisitions and
           representatives from Air Traffic Services and the Operational Evolution Staff to
           discuss our results and recommendations. We have incorporated their comments
           where appropriate. We conducted our work in accordance with Government
           Auditing Standards as prescribed by the Comptroller General of the United States.
           Exhibit A provides information on our objectives, scope, and methodology.


           BACKGROUND
           The OEP is the general blueprint for enhancing capacity of the National Airspace
           System (NAS) over the next decade. FAA developed the OEP in direct response
           to delays and cancellations that reached intolerable levels in the summer of 2000.
           The OEP formalizes plans for a wide range of efforts that were already underway,
                                                                                     2


such as automated controller tools, new weather systems, data link
communications for pilots and controllers, airspace changes, new runways, and air
traffic procedures. The Plan establishes solution sets for problem areas, which
include increasing airport arrival rates, minimizing congestion at high altitudes,
and reducing the impact of bad weather at airports. The first version of the Plan
was introduced in June 2001, and updated versions of the Plan were published in
December 2001 and December 2002. Since it was established, progress has been
made; two new runways at Detroit and Phoenix have opened, and work has been
completed on airspace “choke points” that impacted air traffic east of the
Mississippi.


RESULTS IN BRIEF
The OEP is an important effort because it will shape FAA and industry
investments over the next decade. However, much has changed since the OEP
was introduced—the demand for air travel has declined, major network carriers
are in financial distress, and Aviation Trust Fund revenues have declined sharply.
Moreover, we found that fundamental assumptions about the OEP, such as the
cost, schedule, and benefits of key efforts as well as the ability of airspace users to
pay for and equip with new technologies in the near term, are no longer valid and
need to be revisited.

FAA now forecasts that domestic passenger numbers will return to
September 2000 levels in the 2005 to 2006 timeframe. Thus, FAA has a window
of opportunity to make capacity enhancing changes that will better position the
agency for when the demand for air travel returns. FAA has recently published a
draft 5-year strategic plan that recognizes the importance of enhancing capacity
and seeks to provide a system that meets or exceeds the demand for air traffic
services.

In our view, a combination of factors—the financial health of the major network
airlines, decline in Trust Fund revenues, delays in OEP initiatives, a draft strategic
plan, and a new FAA reauthorization proposal—make it an appropriate time to
take a closer look at the OEP.

We also found that FAA is evaluating the OEP and looking at what can be done in
the near-term, and determining how to make better use of small airports,
developing policies for making better use of congested airspace, and developing a
longer term vision for the National Airspace System beyond the OEP—all of
which are important steps in the right direction. In conjunction with these efforts,
FAA needs to take a number of actions for the OEP to be realistic, cost-effective
and executable. The following actions will enable the OEP to be a solid
foundation for decisionmaking.
                                                                               3


• Determining How Much the Plan Will Cost. FAA has not developed a
  comprehensive cost estimate for the OEP, and cost estimates for individual
  projects are not included in the Plan. Moreover, FAA’s assumptions about
  what projects in the OEP will cost and what can be delivered are based on
  projects that do not have reliable cost and schedule baselines. For example,
  the Integrated Terminal Weather System (ITWS) is a new weather system
  that provides controllers with a 20-minute forecast of weather near airports.
  Production costs for ITWS have skyrocketed from $360,000 to over
  $1 million per unit. As a result, its deployment has been stretched out until
  2008, FAA may procure fewer systems than planned, and production
  systems will be less capable than prototypes currently in use.

   FAA also needs to determine what projects are in the OEP and what
   projects are being deferred. For example, Controller Pilot Data Link
   Communications (data link) is a new way for controllers and pilots to
   communicate that is analogous to e-mail. The approved baseline of almost
   $167 million (for 20 locations) is no longer valid. FAA estimates that it
   would cost $237 million for eight locations—an increase of $70 million for
   less than half of the planned locations to move forward, exclusive of
   controller training costs. Because of these cost increases and uncertainty
   about how quickly airspace users will equip with new systems, FAA is
   deferring plans for data link.

• Linking the OEP to the Agency’s Budget to Help Decisionmakers Set
  Priorities. Linking the Plan to the Agency’s budget is important because
  funding in the modernization account (Facilities and Equipment) will
  remain essentially flat over the next several years as outlined in the
  Administration’s reauthorization proposal, and several OEP initiatives do
  not have reliable cost or schedule estimates. This will help decisionmakers
  determine which projects should be accelerated, deferred, or scaled back.

   Linking the Plan to the budget is also important because there are large-
   scale, billion-dollar acquisitions (new controller displays and related
   computer equipment) not in the Plan that are critical for achieving capacity
   gains. For example, the En Route Automation Modernization will provide
   new software and hardware for facilities that control high altitude traffic at
   an estimated cost of $2.1 billion. FAA needs to determine what its
   priorities are among OEP and modernization projects.

• Establishing a Path for Addressing Uncertainty With Initiatives That
  Require Airspace Users to Purchase and Install New Technologies.
  The OEP assumed that airspace users would invest in a wide range of new
  technologies at a cost of $11 billion over 10 years. However, the current
                                                                              4


   economic environment makes it difficult for the airline industry to make
   decisions about investing in new avionics. For example, FAA estimates the
   cost to equip a single commercial aircraft with Automatic Dependent
   Surveillance-Broadcast (a new satellite-based surveillance system) ranges
   from $168,000 to over $500,000, excluding the cost to take aircraft out of
   revenue service. FAA faces major policy questions about how to transition
   to the new systems, i.e. through voluntary equipage or mandating the use of
   new systems and weighing the costs.

• Taking Full Advantage of Airspace Redesign, New Procedures, and
  Systems Currently Onboard Aircraft. FAA and industry officials we
  spoke with believe that considerable benefits can be obtained through
  airspace changes, new procedures, and systems currently onboard aircraft—
  none of which will require airspace users to make major investments.
  Focusing on these areas may be less costly to airspace users, and will give
  FAA time to address issues with new technologies that require airspace
  users to equip with new systems.

   FAA recognizes the importance of airspace redesign, new procedures, and
   systems currently onboard aircraft in its draft strategic plan but has not
   decided on the best way to execute such a shift in the OEP. Capitalizing on
   airspace redesign, new procedures, and existing onboard aircraft systems
   has resource implications because the Agency will have to shift resources
   from existing programs. For example, a planning document shows that
   FAA would need an additional $27 million between fiscal years (FY) 2003
   and 2005 to accelerate the work to take advantage of systems currently
   onboard aircraft. This is a modest shift and underscores the need to link the
   OEP to the budget and set priorities.

• Assessing Benefits of OEP Initiatives and Using Metrics to Assess
  Progress to Help Make Informed Investment Decisions. The OEP is
  expected to provide a 30 percent increase in capacity over the next
  10 years, assuming all runways are completed, new systems are delivered,
  and airspace users equip with new systems. Of the OEP initiatives we
  reviewed, building new runways provides the largest increase in capacity,
  and runways account for 42 percent of the projected increase in capacity
  promised by the Plan.

   Other than runways, it is less certain what level of increased capacity OEP
   initiatives will deliver. Our analysis of the anticipated benefits of OEP
   projects shows that benefits have shifted or are not clearly defined for some
   projects. For example, the Local Area Augmentation System was expected
   to provide Category II/III precision approach capability (equates to auto
                                                                                                                    5


           landings under all weather conditions) in 2005, but this is now a research
           and development effort with an uncertain end date.

           As FAA moves forward with implementing the OEP as well as a new
           strategic plan, it is critical to determine which projects provide the most
           benefits for the investment. To its credit, FAA has developed high level
           metrics (such as average delay per flight) but is still working on metrics
           specifically to assess how OEP initiatives translate into increases in
           capacity. Additional work is needed to refine OEP metrics, and agreement
           needs to be reached among FAA offices on how to use the metrics and
           report results. Without an agreed-upon approach for assessing OEP
           initiatives, it will be difficult to make informed investment decisions.


FAA Needs to Establish Realistic Cost Estimates for the OEP
FAA has not developed a comprehensive cost estimate for the OEP, and cost
estimates for individual projects are not included in the Plan. The OEP is a
“rolling 10-year plan,” and we have seen estimates for the plan in the $11.5 billion
to $13 billion range for acquiring new systems and related efforts (Facilities and
Equipment), but this does not include costs for sustaining new systems once they
are fielded, training, developing new procedures, making airspace changes, or
building new runways.

FAA’s assumptions about what the OEP will cost and what can be delivered are
based on projects that do not have reliable cost and schedule baselines, as shown
in the following examples and more fully described in Exhibit B.

           • The Local Area Augmentation System (LAAS) is a new precision
             approach and landing system that can boost airport arrival rates under
             all weather conditions. It was planned to be operational in 2002 (CAT I
             performance) and has enjoyed considerable industry support over the
             years but has now slipped to late 2006. The more demanding LAAS
             performance (CAT II and III) is now a research and development effort
             with an uncertain end date.1 Costs, schedule, and expected benefits for
             LAAS are under review.

           • The ITWS is a new weather system that provides controllers with a 20-
             minute forecast of weather near airports. Production costs for ITWS
             have skyrocketed from $360,000 to over $1 million per unit. As a

1
    CAT I precision approach has a 200-foot ceiling/decision height and visibility of 1/2 mile.
    CAT II precision approach has a 100-foot ceiling/decision height and visibility of 1/4 mile.
    CAT III precision approach and landing has a decision height less than 100 feet and visibility down to the airport
    surface.
                                                                                  6


          result, its deployment has been stretched out until 2008, FAA may
          procure fewer systems than planned, and production systems will be less
          capable than prototypes currently in use.

      • Data link is a new way for controllers and pilots to communicate that is
        analogous to e-mail. The approved baseline of almost $167 million (for
        20 locations with deployment complete by late 2005) is no longer valid.
        FAA estimates that it would cost $237 million for eight locations—an
        increase of $70 million for less than half of the planned locations—to
        move forward. Because of this and uncertainty with respect to how
        quickly airspace users will equip, FAA is deferring plans for data link.

      • FAA is pursuing 30 separate airspace redesign projects funded through
        the Operations account. These projects include revamping high altitude
        airspace and a major airspace redesign effort in the New York/New
        Jersey/Philadelphia area planned for 2005.        FAA spends about
        $20 million annually on airspace redesign. However, records show that
        an additional $15 million to $30 million annually would be needed to
        complete OEP initiatives as planned.

Without better information on the cost and schedule of OEP initiatives, it is
unclear how much the plan will cost and whether or not it can be executed.


FAA Needs to Link the OEP to the Agency’s Budget to Help Set
Priorities
As currently structured the OEP includes over 100 initiatives, including runways,
new satellite navigation systems, new controller tools, and airspace changes.
However, priorities among OEP projects have not been established, and the Plan is
not linked to FAA’s $14 billion annual budget. Linking the OEP and the budget is
important because the Plan cuts across various lines of business, and implementing
OEP initiatives depends on funding from different FAA accounts. This will help
decisionmakers set priorities and determine which projects should be accelerated,
deferred, or scaled back.

Setting priorities and linking the Plan to the budget is also important because
funding for modernization (the Facilities and Equipment account) as outlined in
the Administration’s reauthorization proposal is expected to remain essentially flat
over the next 4 years. Historically, FAA modernization projects have suffered
significant cost increases; four major acquisitions we tracked have experienced
cost growth ranging from 21 to 227 percent. Even modest cost growth in major
acquisitions (or OEP initiatives) will have a cascading effect on the schedules of
existing projects, and may limit the number of new projects that can be started.
                                                                                                                 7


Also, there are large-scale, billion-dollar acquisitions not in the Plan that are
critical for its success because they provide the necessary infrastructure (controller
displays and computer processing equipment) for achieving capacity gains. For
example, the En Route Automation Modernization (ERAM) will provide new
software and hardware for facilities that control high altitude traffic at an
estimated cost of $2.1 billion. It will also allow for more timely and flexible
management of airspace, referred to as dynamic resectorization.2 By far, ERAM is
one of the most expensive and software-intensive automation projects FAA has
embarked on since the ill-fated Advanced Automation System. FAA will spend
over $260 million annually—or over $21 million a month—beginning in FY 2005
on ERAM.

The OEP will also impact FAA’s Operations budget, which has witnessed
inordinate cost growth over the years (from $4.6 billion in FY 1996 to $7.1 billion
in FY 2003) largely due to increasing salaries.3 Some OEP initiatives, such as
airspace redesign, are funded principally from this account.

One reason FAA is deferring plans for data link is that it would have added
$54 million to the Operations account between FYs 2005 and 2008 for, among
other things, controller training and overtime for just eight locations, and about
$19 million annually beginning in FY 2009 for the cost of data link messages. If
cost growth in the Operations account is not controlled, it could limit the number
of new systems that can be fielded, and FAA officials told us that the Agency will
have to begin funding some OEP initiatives normally funded through the
Operations account, such as airspace redesign, through the modernization account.


FAA Needs to Address Uncertainty About How Quickly Airspace
Users Will Invest in New Systems
The OEP assumed that airspace users would invest in a wide range of new
technologies, but much has changed since the Plan was first introduced in 2001.
Major network carriers reported losses of $11 billion in 2002 and are projecting
billion-dollar losses for 2003. They are also making significant changes to their
fleets. Overall, U.S. airlines have reduced their fleets by over 10 percent since
September 11, 2001, but are making much greater use of regional jets.

FAA and the MITRE Corporation estimate the OEP would cost airspace users
$11 billion over 10 years to equip with new technologies. Four4 of the 12 projects

2
    Dynamic resectorization is a key element of ERAM, which allows for the more flexible management of airspace (in
    almost real-time) to adjust traffic patterns in response to bad weather or surges in traffic.
3
    For additional details on the cost growth in FAA’s Operations account, see Cost Control Issues for the Federal
    Aviation Administration’s Operations and Modernization Accounts (CC-2003-098, April 9, 2003).
4
    The four projects are Local Area Augmentation System, Automatic Dependent Surveillance-Broadcast, Reduced
    Vertical Separation Minima, and Controller Pilot Data Link Communications.
                                                                                                                   8


we reviewed require airspace users to equip with new or make costly adjustments
to existing avionics. For example, FAA estimates the cost to equip a single
commercial aircraft with Automatic Dependent Surveillance-Broadcast (ADS-B)
(a new satellite-based surveillance system) ranges from $168,000 to over
$500,000. The cost for data link ranges from $30,000 to $100,000 per installation,
excluding the cost to take the aircraft out of revenue service. Exhibit B provides
details on the cost, schedule, and key factors affecting the implementation of the
12 projects we analyzed.

The current economic environment makes it difficult for the airline industry to
make decisions about investing in new avionics—a clear path for moving forward
does not yet exist. However, our analysis of OEP projects—LAAS, data link, and
ADS-B—shows that more details about operational requirements, costs, and
benefits are needed before airspace users can make informed decisions and
financial commitments. It is also unclear what airspace users should equip with
first, or with what combination of systems. Even if the major network carriers
were profitable, FAA would have to articulate costs and expected benefits before
airspace users would make investment decisions.

FAA faces major policy decisions about how and when to transition to these new
systems. The OEP relies on a voluntary path for airspace users to equip with new
systems. This approach is less controversial but will prolong the time to reap
benefits and exacerbates concerns about “mixed equipage” scenarios, where
controllers must handle aircraft that are and are not equipped with new systems.
Some industry and FAA officials believe FAA can mandate new systems by
stating that users will be denied access to certain airspace if they are not properly
equipped. This will change FAA’s current policy (i.e., “first come, first served”)
on access to segments of the National Airspace System described in FAA Order
7110.65N.5


FAA Needs to Take Full Advantage of Airspace Redesign, New
Procedures, and Systems Currently Onboard Aircraft
FAA and industry officials we spoke with believe that considerable benefits can be
obtained through airspace changes, new procedures, and systems currently
onboard aircraft—none of which will require airspace users to make major
investments in new avionics. Focusing on these areas will be less costly to
airspace users and will give FAA time to address issues with the OEP initiatives
that call for airspace users to equip with new systems.



5
    Order 7110.65N, Air Traffic Control, prescribes air traffic control procedures and phraseology for use by persons
    providing air traffic control services.
                                                                                    9


Many aircraft in commercial service already have sophisticated inertial
navigation/flight management systems that rely on many different sensors on the
aircraft to navigate. Harnessing this capability is referred to as Required
Navigation Performance (RNP). RNP is not a new technology but rather an
innovative air navigation concept that describes and defines the navigational
accuracy required for an aircraft to operate in a given airspace. It has the potential
to increase arrival rates during reduced visibility at airports and may provide more
flexible routing and curved and segmented approaches (in conjunction with
instrument landing systems) to airports—a long sought-after benefit for large
airlines.

According to the Air Transport Association (ATA), airspace users—principally
large airlines—are looking to FAA to take an aggressive role in determining how
the use of RNP can enhance capacity, and how quickly new procedures that take
advantage of RNP can be widely implemented. FAA has approved a small
number of new RNP procedures, including new approach and landing routes for
San Francisco Airport.

Officials from the ATA told us that the large network airlines are retiring older
aircraft and that in the next 2 years about 80 percent of all aircraft in commercial
service will be RNP-capable to some extent. FAA is surveying the airlines to
determine what level of RNP performance currently exists in the commercial
transport fleet.

Capitalizing on RNP has resource implications for FAA because the Agency will
have to shift resources from other areas to accelerate the development and
approval of new procedures. For example, a planning document stated that FAA
would need an additional $27 million between FYs 2003 and 2005 to accelerate
RNP development. An additional $40 million over the same period would be
needed for related airspace redesign and procedures development. These
additional funds would have to come from existing programs. This is a modest
shift and underscores the need to link the OEP to the budget and the need to set
priorities among many diverse programs.


FAA Needs to Assess Benefits of OEP Initiatives and Use Metrics to
Assess Progress
The OEP is expected to provide a 30 percent increase in capacity over the next
10 years, assuming all runways are completed, new systems are delivered, and
airspace users equip with new systems. Of the OEP initiatives we reviewed,
building new runways provides the largest increase in capacity, accounting for
42 percent of the projected increase in capacity promised by the Plan. Since the
Plan was introduced, two new runways at Detroit and Phoenix have been built,
                                                                                    10


and the first phase of a runway project at Cleveland was opened December 2002,
with completion of phase two planned for 2004.

The OEP now tracks 12 new runways (see Exhibit B) scheduled for completion in
the next 10 years. Four of the 12 new runway projects are expected to be
completed in 2003 (at Denver, Houston, Miami, and Orlando airports). However,
construction on several other runways has been delayed from 5 months to 2 years.
For example, a new runway in Seattle has been postponed from November 2006 to
November 2008. The most common reasons airports cited for delays focus on
financial and economic issues. There are other new runways that are planned but
not yet in the OEP, such as Chicago O’Hare, that can materially increase capacity.

FAA also notes that some new parallel runways (for Dulles and Miami) are being
built at less than standard spacing (4,300 feet) from other runways. This means
that additional surveillance systems (radars and other systems to identify aircraft),
or a combination of new air traffic procedures and systems currently onboard
aircraft, will be required to get the full benefits associated with parallel operations
during bad weather.

Other than runways, it is less certain what level of capacity OEP initiatives will
deliver. Our analysis of the anticipated benefits of OEP projects shows that
benefits have shifted or are not clearly defined for some projects. For example,
LAAS was expected to provide Category II/III precision approach capability
(equates to auto landings under all weather conditions) in 2005, but this segment
of the LAAS effort is now a research and development effort with an uncertain
end date.

Moreover, the benefits of some projects vary significantly by location, and
solutions at one airport may not work at another. For example, the Precision
Runway Monitor (high-speed radar that can help aircraft land) can help boost
arrival rates in poor weather, but it is only useful for airports that have closely-
spaced parallel runways. Similarly, the Traffic Management Advisor (a new
automated controller tool) is helping boost airport throughput by assisting
controllers sequence aircraft and assign runways. Results show that benefits of the
new controller tool vary by location due to the complexity of airspace. As FAA
moves forward with implementing the OEP, it is critical to determine which
projects provide the most benefits for the investment.

To its credit, FAA has developed high level metrics (such as average delay per
flight) and performance targets for its draft strategic plan (such as airport arrival
efficiency rates). FAA is still working on metrics specifically to assess the impact
of OEP initiatives and exactly how they can translate into increases in capacity. It
is also important to develop metrics to assess how a combination of efforts (new
runways, new controller tools, and airspace changes) impact capacity.
                                                                               11


Although FAA is developing metrics specifically for the OEP, it is unclear how
they will be used. FAA published a draft OEP metrics plan in September 2002
and obtained comments from industry. However, FAA officials told us FAA’s
lines of business responsible for executing OEP initiatives have not yet agreed to
implement the metrics or report results. Without an agreed-upon approach for
assessing the success or failure of OEP initiatives, it will be difficult, if not
impossible, to make informed investment decisions.


Recommendations
We recognize that FAA has published a draft strategic plan and has efforts
underway to revise the OEP, including reviewing efforts that can be accelerated to
reduce airline costs or increase efficiency. However, it will take time to
reconfigure the Plan, and FAA officials point out difficult decisions will need to
be made on many projects with respect to funding levels and schedules. A number
of actions need to be taken as FAA revamps the OEP. Specifically, FAA needs to:

   √ Develop realistic cost estimates, and link the OEP with the Agency’s
     budget in order to set priorities for what can be accomplished in the short
     term.

   √ Determine—in concert with the aviation community—how to move
     forward (and at what pace) with systems that require airspace users to
     purchase and install new technologies.

   √ Determine and maximize the benefits associated with airspace design
     changes, new procedures, and capabilities currently onboard aircraft to
     enhance system capacity.

   √ Quantify benefits associated with OEP initiatives, such as LAAS, and use
     metrics to assess whether initiatives are having the desired impact on
     capacity.

AGENCY COMMENTS
On June 18, 2003, we met with the Associate Administrator for Research and
Acquisitions and representatives from Air Traffic Services and the Operational
Evolution Staff to obtain their oral comments to our discussion draft report. We
incorporated FAA’s comments where appropriate and made adjustments to this
report. FAA officials from those offices generally agreed with our analysis and
recommendations. We are requesting that FAA provide written comments to the
final report.
                                                                                                                                                                                           12


ANALYSIS AND RECOMMENDATIONS

Perspectives on the Health of the Airline Industry, the Demand
for Air Travel, and Financing FAA Programs
The OEP needs to be viewed against the backdrop of how airlines are responding
to the state of the national economy, increased competition from low-fare carriers,
and a sustained downturn in high-fare business travel. Although the industry had
begun to recover in the 4th quarter of 2001 from the sharp drop in travel that
followed the terrorist attacks, that recovery has since stalled when measured by
key indicators such as scheduled capacity, the number of business travelers, airline
yield6 and revenue, and financial losses.

Figure 1 illustrates that
airlines increased scheduled      Figure 1: Scheduled Capacity
                                  Percent Change in Scheduled Flights and Available Seats at
flights and passenger seats       All Airports from 2000 (FAA Data)
during the first half of 2002          4%
in     expectation     of   a
                                       0%
continuing recovery of
demand.       The recovery
                                                Percentage




                                      -4%
stalled,    however,      and         -8%
airlines    responded      by
                                    -12%
reducing capacity in the
second half of 2002. The            -16%
                                                                                        Jul-01




                                                                                                                                              Jul-02




                                                                                                                                                                                                    Jul-03
                                                                                                 Sep-01




                                                                                                                                                       Sep-02




                                                                                                                                                                                                             Sep-03
                                                             Jan-01

                                                                      Mar-01

                                                                               May-01




                                                                                                          Nov-01

                                                                                                                   Jan-02

                                                                                                                            Mar-02

                                                                                                                                     May-02




                                                                                                                                                                Nov-02

                                                                                                                                                                         Jan-03

                                                                                                                                                                                  Mar-03

                                                                                                                                                                                           May-03
war in Iraq resulted in
further cuts in capacity, so
                                                      Scheduled Flights            A vailable Seats
that by May 2003, the
percentage        loss     of
scheduled flights nearly equaled the lows reached in November 2001. With the
end of the war, flight schedules have begun to recover, with the airlines currently
scheduling about 12 and 13 percent fewer flights and available passenger seats,
respectively, in June 2003 than in June 2000 (a decline of 106,000 flights and
11.1 million seats). Schedules for this summer, however, show little added
improvement, with flights and available passenger seats remaining down, between
9 and 13 percent, from the same period in 2000.

Airlines have responded to the weakness in demand by reducing the size of
aircraft operated as well as the number of flights offered. Between June 2000 and
June 2003, scheduled flights involving the smaller regional jets7 increased
142 percent (from 71,764 to 173,732). Flights involving other aircraft types

6
    Airline yield is a standard measurement unit of airline revenue, defined as average revenue per revenue passenger
    mile, or revenue ton mile.
7
    For this analysis, we defined regional jets as those jet aircraft seating from 30 to 80 passengers.
                                                                                                                                                                                                                                                                 13


experienced far less growth or experienced sharp declines, including piston (no
change), turboprop (-44 percent), and large jets (-18 percent). Overall, the portion
of scheduled flights involving regional jets has grown from 8 percent to 21 percent
between June 2000 and June 2003.

The decline in higher-fare
                                    F igure 2: B usiness Travel
business    travelers     has       Percent C h a ng e in Business Tra vel (ATA Da ta )*
mainly affected the major,
                                      10%
network airlines.      These
                                       0%                                                D ec '02
carriers rely on business                                                                Business
travelers        for        a        -10%                                                 -26 %




                                                 Percentage
disproportionate share of            -20%

their revenues, the rule of          -30%             Sep '0 1
thumb        being       that        -40%
                                                      Business
                                                        -4 7 %
20 percent of passengers             -50%
provide 50 percent of




                                                                                                                                      Aug-01




                                                                                                                                                                                                                                                    Aug-02
                                                                                Feb-01




                                                                                                                    Jun-01
                                                                                                                             Jul-01


                                                                                                                                               Sep-01




                                                                                                                                                                                            Feb-02




                                                                                                                                                                                                                                  Jun-02
                                                                                                                                                                                                                                           Jul-02


                                                                                                                                                                                                                                                              Sep-02
                                                                       Jan-01


                                                                                         Mar-01
                                                                                                  Apr-01
                                                                                                           May-01




                                                                                                                                                                 Nov-01
                                                                                                                                                                          Dec-01
                                                                                                                                                                                   Jan-02


                                                                                                                                                                                                      Mar-02
                                                                                                                                                                                                                Apr-02
                                                                                                                                                                                                                         May-02




                                                                                                                                                                                                                                                                                Nov-02
                                                                                                                                                                                                                                                                                         Dec-02
                                                                                                                                                        Oct-01




                                                                                                                                                                                                                                                                       Oct-02
passenger revenues. Data
provided by the ATA show
                                                         *A n a l y z e d b y D e u t s c h e
                                                           B a n k S e c u r i t i e s In c .


that business demand was
down for 2001 and 2002
(see Figure 2). In 2002, business travel was down by an average of 30 percent
compared to 2000. Given this continued weakness in demand, security-driven
inconvenience to passengers at airports, and a growing reluctance of many
companies to pay high business fares, industry analysts now question whether
high-fare business travel will ever return to previous levels.8

Overall, the decline in high-
                                                              Figure 3: Airline Yield
fare travel coupled with a                                    Percent Change in Airline Yield from 2000 (ATA Data)
general decline in ticket
                                                                  5%
prices, has significantly
reduced airline yield and                                         0%

revenue.       As Figure 3
                                                 Percentage




                                                                 -5%
illustrates, airline yields                                                                                                                                                                                                                                   May '03
                                                                -10%
were down in 2001 and                                                                                                                                                                                                                                          -20%

2002 and, in May 2003,                                          -15%

were down 20 percent from                                       -20%                                                                                                  Oct '01
3 years earlier. Moreover,                                                                                                                                             -19%
                                                                -25%
although the major airlines
                                                                                                                    Jul-01

                                                                                                                                  Sep-01




                                                                                                                                                                                                               Jul-02

                                                                                                                                                                                                                            Sep-02
                                                                       Jan-01

                                                                                     Mar-01

                                                                                                    May-01




                                                                                                                                                 Nov-01

                                                                                                                                                                 Jan-02

                                                                                                                                                                              Mar-02

                                                                                                                                                                                             May-02




                                                                                                                                                                                                                                           Nov-02

                                                                                                                                                                                                                                                             Jan-03

                                                                                                                                                                                                                                                                          Mar-03

                                                                                                                                                                                                                                                                                         May-03




have undertaken significant
cost-cutting efforts, the drop
8
    This point is further confirmed by ATA’s decision to no longer track full-fare business travel. According to an ATA
    official, tracking of business versus leisure travel is no longer relevant due to the lessening distinction between full-
    fare and discount ticket prices.
                                                                                                                                                                             14


in revenue continues to outpace reductions in expenses. For example, operating
revenue declined 22 percent for the quarter ending December 2002 compared to
the same period in 2000, whereas operating expenses declined 10 percent.
One factor hampering the airlines’ efforts to reduce expenses has been the increase
in jet fuel costs, which increased over 20 percent between April 2002 and April
2003.

With lower yields and
persistently high operating                                Figure 4: Passenger Load Factors
costs,    “breakeven”      load                            Actual vs. Breakeven Percentages (DOT Data)
                                                                                                                                                                 Breakeven
factors      (the      average                                 100%                                                                                                85%

percentage       of     paying
                                                               80%
passengers needed on all
flights to cover airline costs)
                                                  Percentage
                                                               60%
have increased for most
                                                               40%
carriers. For example, in the                                                                                                                                     Actual
4th quarter of 2002, average                                   20%
                                                                                                                                                                   70%

passenger load factors were
                                                                0%
70 percent—matching         the
                                                                      1Q 2000

                                                                                2Q 2000

                                                                                          3Q 2000

                                                                                                     4Q 2000

                                                                                                               1Q 2001




                                                                                                                                   3Q 2001

                                                                                                                                             4Q 2001

                                                                                                                                                       1Q 2002

                                                                                                                                                                  2Q 2002

                                                                                                                                                                            3Q 2002

                                                                                                                                                                                      4Q 2002
                                                                                                                         2Q 2001
level achieved during the
same period in 2000—but the
“breakeven” load factor was                                                                         Actual                                             Breakeven

85 percent (see Figure 4).

Due to the gap between actual and breakeven load factors, the airline industry
continues to incur sizable losses in 2003. According to ATA, the airline industry
is expected to lose $19 billion in 2001 and 2002 (after taking into account over
$5 billion in direct Government assistance) and is projected to lose an additional
$10 billion in 2003 (excluding Federal reimbursements for security costs relief).

Congress has taken steps to help the airlines. The Air Transportation Safety and
System Stabilization Act (P.L. 107-42) provided $5 billion in funds for passenger
operations and all-cargo operations that were impacted by the September 11
terrorist attacks. This Act also established a loan guarantee program for airlines,
authorizing up to $10 billion in loan guarantees. Thus far, the Air Transportation
Stabilization Board9 has received 16 applications for loan guarantees—5 have
been approved and 1 other has been conditionally approved. Also, the Emergency
Wartime Supplemental Appropriations Act, 2003 (Public Law 108-11), provides
$100 million to reimburse air carriers for cockpit door hardening, and another
$2.3 billion will be provided to the airlines for security expense reimbursement.


9
    Air Transportation Stabilization Board was established by P.L. 107-42 to review and decide on loan applications.
                                                                                                            15


In addition, airlines have been granted a reprieve from security fee collection from
June 1 through September 30, 2003.

The financial weakness in the aviation markets will also affect how FAA funds its
future modernization efforts. Less air travel and lower fares have reduced the
amount of tax revenue FAA will have to fund its programs. Projected revenues
from the Aviation Trust Fund for FY 2004 have dropped from an estimated
$12.6 billion in April 2001 to about $9.8 billion in July 2003. Over the next
4 years (FY 2004 through FY 2007), the Trust Fund is expected to collect about
$12 billion less in taxes than anticipated in April 2001. Table 1 provides
information on the estimated aviation tax revenue.


                    Table 1. Projected Trust Fund Tax Revenue
                                          (Dollars in Billions)

                                               FY 2004 FY 2005 FY 2006 FY 2007                        Total
     Trust Fund Tax Estimates:                  $12.6   $13.3   $14.1   $14.9                         $54.9
     April 2001
     Trust Fund Tax Estimates:                    $9.8        $10.5         $11.1        $11.7         $43.1
     July 2003
     Difference                                   $2.8          $2.8         $3.0          $3.2        $11.8
        Source: FAA

The decline in tax revenues comes at a time when the Federal Government is in
deficit spending and new financial commitments, such as paying for new security
requirements and the war on terrorism, will further stretch the Government’s
resources. As a result, FAA will look to the General Fund to make up differences
in its budget at a time when there are many other competing priorities. Also, with
the Aviation Investment and Reform Act for the 21st Century (AIR-21) expiring at
the end of FY 2003, it is still uncertain what the authorized levels for FAA will be
and whether the new authorization will have funding priorities similar to those in
AIR-21.10 In any case, FAA must consider the financial impact on the OEP and
adjust the Plan accordingly.


Factors That Affect the Implementation of the Operational
Evolution Plan
The OEP is a reasonable plan because it focused on specific problem areas, such
as improving airport arrival rates and how the NAS responds to and recovers from

10
     Currently, AIR-21 requires that FAA’s Airport Improvement Program and Facilities and Equipment accounts be
     funded at authorized levels before allocating any additional Trust Fund revenue to FAA’s Operations budget.
                                                                                 16


bad weather. However, much has changed since the Plan was introduced in
June 2001—the demand for air travel has declined, Trust Fund revenues have
declined sharply, and the major network carriers are in financial distress. We
recognize that FAA has efforts underway to revise the OEP and develop a longer
term vision for the National Airspace System, but there are several factors that the
Agency must consider when updating the OEP. They are:

      • determining how much the Plan will cost and when benefits will be
        delivered;

      • linking the Plan to the budget and establishing priorities;

      • establishing a path for moving forward with initiatives that require
        airspace users to install new technologies;

      • taking full advantage of airspace changes, new procedures, and systems
        currently onboard aircraft; and

      • determining the level of increased capacity that can be expected from
        key initiatives, other than runways.


FAA Needs to Establish Realistic Cost Estimates for the OEP
The OEP is estimated to cost between $11.5 billion and $13 billion for acquiring
new systems, excluding the cost to sustain new systems once they are fielded, the
cost of airspace changes, and the cost to build new runways. The true cost of the
Plan is unknown since it is now a “rolling 10-year plan,” and because of the
developmental nature of many systems such as data link and LAAS. In addition,
FAA is looking at whether the implementation of some new technologies (such as
ADS-B) at the local level rather than nationally would generate earlier and more
effective benefits.

FAA’s estimates of what the OEP will cost and what can be delivered are based on
projects that themselves do not have reliable cost and schedule baselines as shown
in the following examples.

      • The LAAS is a new precision approach and landing system that can
        boost airport arrival rates under all weather conditions. It was planned
        to be operational in 2002 (CAT I performance) and has enjoyed
        considerable industry support over the years but has now slipped to late
        2006. The more demanding LAAS performance (CAT II and III) is
        now a research and development effort with an uncertain end date.
        Costs, schedule, and expected benefits for LAAS are under review.
                                                                               17


      • The ITWS is a new weather system that provides controllers with a
        20-minute forecast of weather near airports. Production costs for ITWS
        have skyrocketed from $360,000 to over $1 million per unit. As a
        result, its deployment has been stretched out until 2008, FAA may
        procure fewer systems than planned, and production systems will be less
        capable than prototypes currently in use.

      • Data link is a new way for controllers and pilots to communicate that is
        analogous to e-mail. The approved baseline of almost $167 million (for
        20 locations to be deployed by late 2005) is no longer valid. FAA now
        estimates that it would cost $237 million for eight locations—an
        increase of $70 million for less than half of the planned locations—to
        move forward. Because of this and uncertainty about how quickly
        airspace users will equip with data link technology, FAA is deferring
        plans for data link.

      • FAA is pursuing 30 separate airspace redesign efforts, which include
        revamping high altitude airspace, and has planned a major airspace
        redesign effort in the New York/New Jersey/Philadelphia area for 2005.
        Adjustments to airspace are critical to bring new runways, technologies,
        and procedures on line and obtain maximum benefits. FAA has
        budgeted about $20 million annually for airspace redesign. However,
        documents we reviewed show that an additional $15 million to
        $30 million annually would be needed to complete OEP initiatives as
        planned. These estimates do not include costs associated with new
        communications equipment or new air traffic control sectors that often
        result from airspace changes like the National Choke Points Initiative.

Without better information on the cost and schedule of OEP initiatives, it is
unclear how much the plan will cost and whether or not it can be executed.


FAA Needs to Link the OEP to the Agency’s Budget to Help Set
Priorities
As currently structured, the OEP includes over 100 initiatives, including runways,
new satellite navigation systems, new controller tools, and airspace changes.
However, priorities among OEP projects have not been established, and the Plan is
not linked to FAA’s $14 billion budget. This is important because the Plan cuts
across various lines of business and because implementing OEP initiatives
depends on funding from different FAA accounts. A clear connection between the
OEP and the budget will help decisionmakers set priorities and understand
relationships between efforts. For example, FAA’s Research, Engineering, and
Development Plan is linked to the Agency budget and provides funding
                                                                                                                 18


information as well as a crosswalk to research conducted in various Agency
accounts by budget number and line item.

Setting priorities and linking the Plan to the budget is also important because
funding for modernization (the Facilities and Equipment account), as outlined in
the Administration’s reauthorization proposal, is expected to remain essentially
flat over the next 4 years. Moreover, of the $2.9 billion FY 2004 request for
modernization, only 60 percent is for new systems; the remaining funds are for
facilities and salaries. Historically, FAA modernization projects have suffered
significant cost increases: four major acquisitions we tracked have experienced
cost growth ranging from 21 to 227 percent.11 Even modest cost growth in major
acquisitions (or OEP initiatives) will have a cascading effect on the schedules of
existing projects, and may limit the number of new projects that can be started.

Also, there are large-scale, billion-dollar acquisitions (see Figure 5) not in the Plan
but critical for its success because they provide the necessary infrastructure
(controller displays and related computer equipment) for achieving capacity gains.
These projects must be taken into account when establishing expectations for
when new capabilities can be brought on line. They will be competing with OEP
initiatives for funds over the next several years. The following illustrates three of
these projects and FAA’s anticipated level of investment through FY 2006.




11
     The four major acquisitions are Wide Area Augmentation System, Standard Terminal Automation Replacement
     System, Airport Surveillance Radar (ASR-11), and Weather and Radar Processor (covered in our report Cost Control
     Issues for the Federal Aviation Administration’s Operations and Modernization Accounts (CC-2003-98,
     April 9, 2003).
                                                                                                          19


                        Figure 5. Major Acquisitions Not in the OEP
                                           (FYs 2003 to 2006)
                 $350

                                                                                              ERAM


                 $300




                 $250




                 $200
     $Millions




                 $150


                                                                                              NEXCOM

                 $100

                                                                                              STARS


                 $50




                  $0
                         FY03                FY04                   FY05                   FY06
                                                        Years


 Program                                 Description                                       Estimated
                                                                                           Cost
 Standard Terminal Automation Provides new controller displays,                            $1.7 billion
 Replacement System (STARS) improved software, and related                                 (Costs are under
                              equipment for FAA air traffic control                        review)
                              facilities.
 En Route Automation          Replaces existing hardware and software $2.1 billion
 Modernization (ERAM)         at facilities (the nerve center) that
                              control high altitude traffic and will
                              allow for more timely and flexible
                              routing of aircraft.
 Next-Generation Air/Ground   New multi-mode radios for air traffic   $986 million
 Communications (NEXCOM) control facilities that will replace analog (Segment 1)
                              with digital systems. FAA plans to use
                              NEXCOM for both voice and data.


FAA expects to spend $1.3 billion on these three programs alone between
FY 2004 and FY 2006, exclusive of other modernization programs. By far,
ERAM is one of the most expensive and software-intensive automation projects
FAA has embarked on since the Advanced Automation System.12 FAA will spend

12
     See the OIG Audit Report, Advanced Automation System (AV-1998-113, April 15, 1998).
                                                                                                                 20


over $260 million annually—or over $21 million a month—beginning in FY 2005
on ERAM. Progress and problems with ERAM will affect how quickly FAA can
move forward with other modernization programs, including new automated
controller tools and data link.

The OEP will also impact FAA’s Operations budget, which has experienced
inordinate cost growth over the years (from $4.6 billion in 1996 to $7.1 billion in
2003) due to increasing salaries.13 Some OEP initiatives, such as airspace
redesign, are funded principally from this account.

One reason FAA is deferring plans for data link is that it would have added
$54 million to the Operations account between FYs 2005 and 2008 for, among
other things, controller training and overtime for just eight locations, and about
$19 million annually beginning in FY 2009 for the cost of data link messages. If
cost growth in the Operations account is not controlled, it could limit the number
of new systems that can be fielded, and FAA officials told us that the Agency will
have to begin funding some OEP initiatives, such as airspace redesign, through the
Facilities and Equipment account.


FAA Needs to Address Uncertainty About How Quickly Airspace
Users Will Invest in New Systems
The issue of equipage is one of the biggest challenges facing FAA and industry.
The OEP assumed that a majority of airspace users would invest in and install an
unprecedented range of new communication, navigation, and surveillance
technologies. However, much has changed since the Plan was first introduced in
2001. Major network carriers reported losses of $11 billion in 2002 and are
projecting billion-dollar losses for 2003. They are also making significant changes
to their fleets. Four of the 12 projects we reviewed require airspace users to equip
with new systems or make costly adjustments to existing avionics, including
satellite navigation, data link (for controllers and pilots), and ADS-B.

The cost for industry to implement OEP initiatives has been estimated by FAA
and the MITRE Corporation to be about $11 billion over 10 years. However, the
current economic environment makes it difficult for the airline industry to make
decisions about investing in new avionics.




13
     For additional details on the cost growth in FAA’s Operations account, see the OIG Report on Cost Control Issues
     for the Federal Aviation Administration’s Operations and Modernization Accounts (CC-2003-098, April 9, 2003).
                                                                                                             21


Table 2 provides information on OEP initiatives that will require airspace users to
modify their aircraft.


            Table 2. OEP Programs Requiring Aircraft Equipment
                               Installations

 Program                Purpose                         Type of Upgrade                    Cost per Aircraft
 LAAS                   Augmentation of the Global      Changes to navigation                 $56,000-88,000
                        Positioning System signal to    receivers.
                        provide precision approach
                        capability to airports.
 ADS-B                  New satellite-based             Installation of cockpit display       $168,000-500,000
                        surveillance system that        and upgrades to aircraft
                        enables airborne collision      transponder.
                        detection and improved
                        runway throughput.
 Reduced Vertical       Permits aircraft flying above   Changes to aircraft altimetry         $13,000-207,500
 Separation             29,000 feet to operate with     systems may be required for
 Minima (RVSM)          reduced vertical separation     some operations, including
                        between aircraft.               Traffic Alert and Collision
                                                        Avoidance System, and
                                                        altitude alerting systems.
 Data Link        New way for controllers and           Installation of new cockpit           $30,000-100,000
                  pilots to communicate that            display and aircraft
                  is analogous to e-mail.               transmitter/receiver unit.
Source: FAA and MITRE Corporation estimates

FAA tasked the RTCA14—a joint Government/industry forum—to examine the
equipage issue and to explore associated implementation issues. In August 2002,
RTCA reported that more details about requirements, costs, and benefits are
needed before commitments can be made. Our analysis of OEP projects—LAAS,
data link, and ADS-B—confirms the need for much more clarity with respect to
operational requirements, costs, and benefits before airspace users can make
informed decisions and financial commitments.

FAA faces major policy decisions about how and when to transition to these new
systems. It is also unclear what airspace users should equip with first, or with
what combination of systems.

FAA can make equipping with new systems voluntary as it is now or mandate
(through rulemaking) that airspace users equip with new systems. The voluntary
path is less controversial, but prolongs the time it takes to reap benefits and
exacerbates concerns about “mixed equipage” scenarios, where controllers must
14
     RTCA, Inc., is a private, not-for-profit corporation that develops recommendations regarding communications,
     navigation, surveillance, and air traffic management system issues. RTCA functions as a Federal advisory
     committee. FAA considers its recommendations when shaping policy, program, and regulatory decisions.
                                                                                                                 22


handle aircraft that are and are not equipped with new systems. To address this,
some industry and FAA officials believe FAA can deny access to certain airspace
if aircraft are not properly equipped. This will change FAA’s current policy (“first
come, first served”) of granting access to segments of the National Airspace
System outlined in FAA Order 7110.65N.

A recent report on the future of the U. S. aerospace industry notes that a
fundamental barrier to realizing benefits with systems that require equipage is the
lack of operator incentives for implementing system-wide innovations.15 This is
partly because “early equippers” receive few efficiency benefits until there are
enough similarly-equipped aircraft to make air traffic operational changes
practical and system efficiencies a reality. The report set forth several alternatives
to resolving the equipage issue, including Federal funding for airborne equipment.
We believe careful consideration must be given to this critical policy issue before
Federal funds are committed to help airspace users equip with new systems.


FAA Needs to Take Full Advantage of Airspace Redesign, New
Procedures, and Systems Currently Onboard Aircraft
FAA and industry believe that considerable capacity benefits can be obtained
through a combination of airspace changes, new procedures, and systems currently
onboard aircraft. Coupled with planned new runways, the capacity gains from
these efforts could be significant.

Many aircraft in commercial service already have sophisticated inertial
navigation/flight management systems that rely on many different sensors
(Distance Measuring Equipment and the Global Positioning System) to navigate.
These are being used to implement a capability referred to as Required Navigation
Performance (RNP).

RNP is not a new technology but rather an innovative navigation concept that
describes and defines the navigational accuracy required for an aircraft to operate
in a given airspace. It has the potential to increase arrival rates during reduced
visibility at airports and may provide more flexible routing and curved and
segmented approaches to airports—a long sought-after benefit for large airlines.

According to ATA, airspace users—principally large airlines—are looking to FAA
to take an aggressive role in determining how RNP-equipped aircraft can enhance
capacity, and how quickly new procedures (that take advantage of RNP) can be
widely implemented. Officials from ATA told us that the large network airlines
are retiring older aircraft and that in the next 2 years about 80 percent of all
commercial aircraft in service will be RNP-capable to some extent. FAA is

15
     See the Final Report of the Commission on the Future of the United States Aerospace Industry (November 2002).
                                                                               23


surveying the airlines to determine what level of RNP performance currently
exists in the commercial transport fleet.

FAA has established a special program office to move forward with RNP
capability and, to date, has approved a small number of new procedures. For
example, FAA has approved new approach and landing routes for San Francisco
Airport. However, FAA officials told us that much work remains to refine
standards, criteria, and procedures.

Capitalizing on RNP has resource implications for FAA that have not yet been
resolved. A planning document we reviewed stated that FAA would need an
additional $27 million between FY 2003 and FY 2005 to accelerate RNP
development. An additional $40 million over the same period would be needed
for related airspace redesign and procedures development. Funding will have to
come from existing programs.


FAA Needs to Assess Benefits of OEP Initiatives and Use Metrics to
Determine Progress
FAA estimates that the OEP will provide a 30 percent increase in capacity over the
next 10 years (2003 to 2013), assuming all systems are delivered on time and
planned runways reach fruition.

New runways are the surest way to enhance capacity, and FAA estimates that new
runways will account for 42 percent of the projected increase in capacity promised
by the Plan. For example, the planned new runway at Atlanta International
Airport is expected to increase airport throughput capacity by 31 percent in good
weather and 27 percent in bad weather. Since the plan was introduced, two new
runways at Detroit and Phoenix have been built, and the first phase of a runway
project at Cleveland was opened December 2002, with completion of phase two
planned for 2004.

The OEP now tracks 12 new runways scheduled for completion in the next
10 years. Four of the 12 new runways are expected to be completed in 2003 (at
Denver, Houston, Miami, and Orlando airports). However, construction on
several other runways has been delayed from 5 months to 2 years. For example, a
new runway in Seattle has been postponed from November 2006 to November
2008. The most common reasons airports cited for delays focus on financial and
economic issues. There are other new runways that are planned but not yet in the
OEP, such as Chicago O’Hare, that can materially enhance capacity.

FAA also notes that some new parallel runways (for Dulles and Miami) are being
built at less than standard spacing (4,300 feet) from other runways. This means
that additional surveillance systems (radars or other systems such as ADS-B to
                                                                                   24


identify aircraft) will be required to get the full benefits associated with parallel
operations during bad weather.

Aside from runways, it is less certain what level of capacity OEP initiatives will
deliver. Our analysis of the anticipated benefits of OEP projects we reviewed
shows that benefits have changed, have diminished, or are not clearly defined. For
example, LAAS was expected to provide Category II/III precision approach
capability under all weather conditions in 2005, but this segment of the LAAS
effort is now a research and development effort with an uncertain end date.

Moreover, the benefits of some projects vary significantly by location, and
solutions at one airport may not work at another. For example, the Precision
Runway Monitor (high-speed radar that can help aircraft land) can help boost
arrival rates in poor weather, but it is only useful for airports that have closely-
spaced parallel runways. Similarly, the Traffic Management Advisor (a new
automated controller tool) is helping boost airport throughput by helping
controllers sequence aircraft and assign runways. Results show that benefits of the
new controller tool vary by location due to the complexity of airspace. As FAA
moves forward with implementing the OEP, it is critical to determine which
projects provide the most benefits for the investment.

To its credit, FAA has developed high level metrics (such as average delay per
flight) and performance targets for capacity initiatives in its strategic plan. FAA is
still working on metrics specifically to assess the impact of OEP initiatives and
exactly how they can translate into increases in capacity at the 35 benchmark
airports.16 Metrics are important and will be used two ways—as a means to count
and as a means to evaluate new initiatives. It is also important to assess how a
combination of efforts (new runways, new controller tools, and airspace changes)
impact capacity.

FAA published a draft OEP metrics plan in September 2002 and obtained
comments from industry. However, FAA officials told us FAA’s lines of business
responsible for executing OEP initiatives have not yet agreed to implement the
metrics or report results. Without an agreed-upon approach for assessing success
or failure of OEP initiatives, it will be difficult, if not impossible, to make
informed investment decisions.




16
     See OEP Metrics Plan (version 1.2 September 30, 2002).
                                                                               25


RECOMMENDATIONS
We recommend that the Federal Aviation Administrator:

   1. Develop realistic cost estimates, and link the OEP with the Agency’s
      budget in order to set priorities for what can be accomplished in the short
      term.

   2. Determine—in concert with the aviation community—how to move
      forward (and at what pace) with systems that require airspace users to
      purchase and install new technologies.

   3. Determine and maximize the benefits associated with airspace design
      changes, new procedures, and capabilities currently onboard aircraft to
      enhance system capacity.

   4. Quantify benefits associated with OEP initiatives, such as data link and
      LAAS, and use metrics to assess whether initiatives are having the desired
      impact on capacity.


AGENCY COMMENTS
On June 18, 2003, we met with the Associate Administrator for Research and
Acquisitions and representatives from Air Traffic Services and the Operational
Evolution Staff to obtain their oral comments to our discussion draft report. We
incorporated FAA’s comments where appropriate and made adjustments to this
report. FAA officials from those offices generally agreed with our analysis and
recommendations. Although no changes were needed in the report, FAA officials
pointed out that they are reviewing the costs for airspace users to equip with new
systems called for in the Plan, such as ADS-B, and expect these costs to decline.


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments on this report within 30 calendar days.
If you concur with the finding and recommendations, please indicate the specific
action taken or planned for each recommendation and the target date for
completion. If you do not concur, please provide your rationale. You may
provide alternative courses of action that you believe would resolve the issues
presented in this report.
                                                                                 26


We appreciate the courtesies and cooperation of Federal Aviation Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or David A. Dobbs, Assistant Inspector General
for Aviation Audits, at (202) 366-0500.

                                         #
                                                                                27




EXHIBIT A. OBJECTIVES, SCOPE AND
METHODOLOGY
As requested by the House Committee on Transportation and Infrastructure, our
objective was to develop an overall status report on the OEP. Based on
discussions with FAA and industry officials, we selected 12 projects (ranging from
new runways to new automated controller tools) to review in detail. These
projects were selected because of their potential to increase the capacity of the
National Airspace System. For each project, we analyzed (1) cost and schedule
data, (2) anticipated level of capacity improvements, and (3) factors that impact a
project’s implementation and its capability to achieve anticipated capacity
increases.

We performed our work at FAA Headquarters between January 2002 and
June 2003. Our Atlanta and Seattle Regional Offices assisted our efforts on
selected OEP initiatives. Our scope covered all pertinent OEP activities between
June 2001 and June 2003. All work was performed in accordance with
Government Auditing Standards as prescribed by the Comptroller General of the
United States and included such tests of procedures, records, and other data as
warranted.

      • We reviewed (1) selected reports and testimonies issued by our office
        and the General Accounting Office, (2) relevant reports and other
        literature on topics applicable to the OEP, and (3) information on OEP
        activities available on FAA and other aviation-related web sites.

      • We analyzed cost and schedule data on the 12 projects from FAA
        program offices.

      • We analyzed available data on anticipated benefits from key initiatives
        provided by various FAA program offices to determine reliability of the
        data and methodology used.

      • We interviewed managers and staff of the FAA OEP Program Office as
        well as managers and staff of other relevant FAA offices responsible for
        the 12 projects reviewed. We interviewed representatives of: the
        aviation community such as the MITRE Corporation and RTCA;
        industry groups such as the Air Transport Association and General
        Aviation Manufacturers Association; and the National Air Traffic
        Controllers Association.



Exhibit A. Objecti ves, Scope and Methodolog y
                                                                      28


     • We attended a wide range of FAA and industry related meetings that
       shaped the direction of the OEP, including the NAS Operational
       Evolution Industry Day, and the RTCA and Air Traffic Control
       Association symposia.




Exhibit A. Objecti ves, Scope and Methodolog y
                                                                                                                                                                                      29




EXHIBIT B. STATUS OF SELECTED CAPACITY ENHANCING INITIATIVES
                                                       Automatic Dependent Surveillance-Broadcast (ADS-B)
              Original                                                                              Original                                          Current
                                                         Current
          Cost Estimate                                                                     Deployment Schedule                              Deployment Schedule
                                                      Cost Estimate
           $215.1 million                                                                            2001                                               2012
                                                       $268.4 million
       (Part of Safe Flight 21)                                                       (Limited deployment—Bethel, Alaska)                           (NAS-wide)
                                                                                                                                        Status and Key Issues Affecting
               Purpose/Background                                                 Anticipated Benefits                                           Implementation
ADS-B is an air-to-air, air-to-ground, ground-to-          ADS-B has both safety and capacity benefits. ADS-B, in               FAA and industry believe that Safe Flight 21 has
ground communications, navigation and surveillance         conjunction with moving map displays in the cockpit, shows           made important progress in developing ADS-B as
system that relies on the Global Positioning System        potential for reducing runway incursions because it gives pilots a   well as new avionics and cockpit displays. FAA
(GPS) to broadcast the positions of properly equipped      “second set of eyes” in the cockpit. It also shows considerable      has purchased 200 sets of avionics for aircraft in
aircraft and surface vehicles. ADS-B is being              potential for improving surveillance in non-radar environments,      Alaska (Phase 1-Bethel area) and plans to procure
pursued as part of the Safe Flight 21 Program, which       such as Alaska. It will provide:                                     an additional 200 sets of avionics under Phase 2 in
has focused on initiatives in the Ohio River Valley                                                                             the Juneau area. The following issues need to be
and Alaska.                                                                                                                     closely watched:
                                                           •   Improved terminal operations in low visibility.
Pilots, controllers and surface vehicle operators are      •   Enhanced see-and-avoid and air-to-air operations.                •   Considerable human factors work remains for
able to track ADS-B equipped aircraft and surface                                                                                   both controllers and pilots.
vehicles using real-time moving maps/multi-function        •   Improved surface surveillance and navigation for the pilot.
displays. ADS-B broadcasts aircraft and surface                                                                                 •   Airspace users must equip to obtain benefits.
                                                           •   Enhanced airport surface surveillance for the controller.            FAA estimates the cost to equip at $168,000 to
vehicle identification, position, altitude, velocity and
direction once per second.                                 •   Reduced delays through improved planning of movement and             over $500,000 for large commercial aircraft.
                                                               decisionmaking due to shared situational awareness of surface    •   Requirements for ADS-B continue to evolve.
                                                               operations for controllers and pilots.
                                                                                                                                •   Safety assessments will need to be conducted
                                                           •   Use of cockpit tools and displays to achieve high levels of          as greater reliance is placed on ADS-B for
                                                               capacity in all weather conditions.                                  separating aircraft.
                                                                                                                                •   Significant challenges remain with integrating
                                                                                                                                    ADS-B with other NAS systems. FAA has
                                                                                                                                    efforts underway to integrate ADS-B with
                                                                                                                                    existing controller displays.
                                                                                                                                •   ADS-B is now a key element in other FAA
                                                                                                                                    programs, including the Airport Surface
                                                                                                                                    Detection Equipment-X effort, which will help
                                                                                                                                    prevent accidents on runways.


Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                 30

                                                                 Collaborative Decision Making (CDM)

                Original                                 Current                                  Original                                       Current
             Cost Estimate                            Cost Estimate                         Deployment Schedule                            Deployment Schedule
           FFP11—$ 64.4 million                    FFP1—$ 60.7 million                           FFP1—2001                                      FFP1—2001
           FFP22—$ 75.9 million                    FFP2—$ 75.1 million                           FFP2—2005                                      FFP2—2005
           Total—$140.3 million                    Total—$135.8 million

                                                                                                                                      Status and Key Issues Affecting
                    Purpose/Background                                           Anticipated Benefits                                          Implementation
    CDM is not a new air traffic management technology      •   CDM does not add new capacity, but it helps make better use   CDM was implemented in 2001 as part of the Free
    but rather an information exchange system that links        of reduced airport and en route capacity during inclement     Flight Phase 1 initiative and is one of the most
    participating airlines with FAA’s Command Center            weather.                                                      successful Free Flight Phase 1 initiatives. As part
    and facilitates the real-time exchange of information                                                                     of Free Flight Phase 2, FAA will provide additional
    on changes to flight schedules. It allows FAA and       •   When inclement weather causes FAA to propose a general        information, and new tools, and will assess ways to
    airlines to more easily respond to changing                 ground delay program, airlines may change their flight        improve information security. The following issues
    conditions. FAA reports that over 30 airlines and           schedules in response and communicate changes to FAA.         need to be closely watched:
    NavCanada are participating in the CDM initiative.          Airlines may cancel, combine, swap, or delay flights, which
                                                                will affect the availability of arrival slots. CDM uses a     •   According to FAA, to further use CDM to
                                                                complex process to distribute any unused arrival slots.           increase capacity and reduce delays, it needs to
                                                                                                                                  develop a more secure information sharing
                                                            •   FAA reports that CDM’s Ground Delay Program Enhancement           architecture.
                                                                “avoided” over 20 million minutes of delay between
                                                                January 1998 and November 2002.                               •   As FAA moves forward with CDM, the agency
                                                                                                                                  believes it must examine and resolve issues
                                                                                                                                  associated with sharing information between
                                                                                                                                  airlines that have anti-trust implications. FAA
                                                                                                                                  has indicated that greater information sharing
                                                                                                                                  (among airlines) planned for CDM may be
                                                                                                                                  disallowed under current anti-trust regulations.




1
    Free Flight Phase 1
2
    Free Flight Phase 2
Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                         31

                                                        Controller Pilot Data Link Communication (Data Link)

                                                                                                       Original                                          Current
              Original                                    Current
                                                                                               Deployment Schedule                               Deployment Schedule
           Cost Estimate                               Cost Estimate
                                                                                             Build 1—2002 (Miami Center)                               Build 1—2002
            $166.7 million                              $166.7 million
                                                                                                    Build 1A—2003                               Build 1A—Program Deferred
                                                       (Under review)
                                                                                                                                             Status and Key Issues Affecting
                Purpose/Background                                                   Anticipated Benefits                                               Implementation
Data link is a new way for controllers and pilots to          FAA is working to quantify the benefits associated with data link.     FAA began initial daily use of data link at Miami
communicate that is analogous to email. The pilot             It is generally believed that data link will allow controllers to      Center in October 2002. American Airlines,
can read the message displayed on a screen in the             communicate with more aircraft thereby increasing productivity.        utilizing Rockwell-Collins avionics, has equipped a
cockpit and respond to the message with the push of a         Anticipated benefits include:                                          number of aircraft (Boeing 757s and 767s) to
key. The initial phase will only consist of                                                                                          participate in Build 1. FAA planned to deploy data
four services: initial contact, altimeter setting, transfer   •   Shifting routine transmissions from voice to data link to reduce   link to 20 facilities as part of Build 1A, but is now
of communication, and predefined instructions via                 delays.                                                            deferring plans because of increased costs and
menu text.                                                                                                                           uncertainty with respect to how quickly airspace
                                                              •   Reducing the number of miscommunications and operational           users will equip. The following issues need to be
                                                                  errors resulting from miscommunications.                           closely watched:
                                                              •   Reducing frequency congestion.                                     •   Data link presents complex human factors
                                                                                                                                         issues for both controllers and pilots.
                                                              •   Easing controller workload.
                                                                                                                                         Continued research and development is needed
                                                                                                                                         to explore these issues.
                                                                                                                                     •   Airspace users must equip with new avionics to
                                                                                                                                         obtain benefits. Cost estimates range from
                                                                                                                                         $30,000 to $100,000 per aircraft.
                                                                                                                                     •   With the additional services provided in Build
                                                                                                                                         1A, software for ground systems will be
                                                                                                                                         developed to rigorous RTCA standards (known
                                                                                                                                         as “DO-178B”) or equivalent.
                                                                                                                                     •   The cost to implement data link in the en route
                                                                                                                                         environment remains uncertain and is currently
                                                                                                                                         undergoing review.
                                                                                                                                     •   FAA is working to align data link efforts with
                                                                                                                                         plans for ERAM, which provides new software
                                                                                                                                         at facilities that control high altitude traffic.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                       32

                                                   Domestic Reduced Vertical Separation Minimum (DRVSM)

             Original                                    Current                                   Original                                            Current
          Cost Estimate                               Cost Estimate                          Deployment Schedule                                Deployment Schedule
           $11.22 million                              $11.22 million                           December 2004                                        January 2005

                                                                                                                                          Status and Key Issues Affecting
                Purpose/Background                                               Anticipated Benefits                                               Implementation
DRVSM reduces the vertical separation between               •   Adds six additional flight levels for aircraft operating between   FAA published a notice of proposed rulemaking to
aircraft at high altitudes. Currently, aircraft operating       29,000 and 41,000 feet.                                            implement DRVSM in U.S. domestic airspace in
above 29,000 must be vertically separated by                                                                                       May 2002. DRVSM standards have been used in
2,000 feet. The FAA intends to reduce the vertical          •   Reduces airspace complexity and permits greater                    Europe and oceanic airspace since 1997. The United
separation between aircraft to 1,000 feet. With few             maneuverability in vicinity of severe weather.                     States will be one of the last to implement DRVSM.
exceptions, once DRVSM is implemented, aircraft                                                                                    The following items need to be closely watched.
that do not meet DRVSM equipage requirements will
be not be permitted between 29,000 and 41,000 feet.         •   Allows operators to reduce fuel costs by flying at more fuel-
                                                                efficient flight levels. FAA estimates that there would be         •   Users of some aircraft must modify their aircraft
                                                                $5.3 billion in fuel savings for commercial operators between          to fly in DRVSM airspace. Modifications are
                                                                2005 and 2016.                                                         needed to the aircraft’s altitude holding, sensing,
                                                                                                                                       and alerting systems in addition to upgrades to
                                                            •   Controllers will not have to take additional steps to transition       Traffic Alert and Collision Avoidance System II.
                                                                aircraft from oceanic airspace, which is already using DRVSM,          FAA estimates that it will cost $869 million to
                                                                to domestic airspace.                                                  equip the U.S. fleet.

                                                                                                                                   •   The cost to modify older aircraft may be
                                                                                                                                       significant for some operators (up to $150,000
                                                                                                                                       for a DC-9 and $235,000 for a Gulfstream II).
                                                                                                                                       FAA is reviewing costs associated with older
                                                                                                                                       aircraft.

                                                                                                                                   •   The aviation industry is concerned that FAA
                                                                                                                                       may not have sufficient resources to meet the
                                                                                                                                       approval/certification requirements to grant
                                                                                                                                       operator approval for the large volume of diverse
                                                                                                                                       aircraft and operators.

                                                                                                                                   •   FAA must complete work on ground-based
                                                                                                                                       height monitoring systems, which verify
                                                                                                                                       aircraft altitude, and determine where to deploy
                                                                                                                                       them.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                      33

                                                            Integrated Terminal Weather System (ITWS)

                                                     Current                                    Original                                           Current
            Original
                                                 Cost Estimate                            Deployment Schedule                              Deployment Schedule
         Cost Estimate
                                                  $286.1 million                                 2003                                                2008
          $276.1 million
                                          (FAA is re-evaluating how many                                                              (Deployment strategy is under review)
         (For 37 systems)
                                             systems it will procure)

                                                                                                                                       Status and Key Issues Affecting
                Purpose/Background                                            Anticipated Benefits                                              Implementation
ITWS is FAA’s first attempt at providing a system       ITWS has both safety and capacity enhancing benefits. An analysis      Prototypes of ITWS that have been in the field for a
that integrates weather information from various FAA    done by Massachusetts Institute of Technology’s Lincoln                number of years have been well received by
and National Weather Service sensors located at or      Laboratories in 2002 concluded that ITWS could provide over            controllers and by the airline industry because they
near airports, including the Terminal Doppler           $627 million in benefits per year, including value of passenger time   can help improve the flow of air traffic. However,
Weather Radar, Airport Surveillance Radar, and the      and reduced cost to airlines. Specific ITWS benefits include:          the following issues need to be closely watched:
Next Generation Radar. ITWS provides air traffic
controllers, air traffic supervisors/managers,          •    Avoiding and/or limiting the time runways are closed.             •   Production costs are three times more than
dispatchers, and pilots with a graphical picture of                                                                                anticipated – growing from $360,000 per unit
                                                        •    Providing better recognition of when runways can be reopened.
current weather that does not require meteorological                                                                               to over $1.1 million per unit. Consequently,
interpretation. ITWS is planned to provide weather      •    Providing more accurate knowledge of where storms are.                funding is insufficient to deploy all systems as
information at airports having significant convective                                                                              planned.
                                                        •    Improving routing efficiency.
weather exposure (typically thunderstorm activity)
and commercial airline operations.                      •    Providing terminal wind data to increase effectiveness.           •   Production ITWS units will not be as capable
                                                        •    Avoiding diversions and missed connections.                           as the prototypes. The production ITWS will
                                                                                                                                   not include the Terminal Convective Weather
                                                        •    Providing 2-minute predictions of microbursts.                        Forecast, which is a pre-planned product
                                                        •    Providing windshear conditions.                                       improvement, and current users of the ITWS
                                                                                                                                   prototypes may not find the production system
                                                        •    Providing lightning warnings.                                         as beneficial.
                                                        •    Providing forecasts to route air traffic away from severe
                                                             weather.                                                          •   FAA plans to extend the deployment schedule
                                                                                                                                   5 years because the program cannot be
                                                                                                                                   executed as planned within the existing budget.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                   34

                                                          Local Area Augmentation System (LAAS)

                                                   Current                                                                                        Current
             Original                                                                          Original
                                               Cost Estimate                                                                              Deployment Schedule
          Cost Estimate                                                                Deployment Schedule
                                         $696.1 million for 160 systems                                                             2006 for CAT I Limited Deployment
   $530.1 million for 143 systems                                                      2002 for Category (CAT) I
                                                (Under Review)                                                                    CAT II/III now a Research & Development
                                                                                          2005 for CAT II/III
                                                                                                                                                   Program

                                                                                                                                      Status and Key Issues Affecting
              Purpose/Background                                             Anticipated Benefits                                               Implementation
LAAS is a precision approach and landing system      LAAS has both capacity enhancements and safety benefits. FAA’s           FAA needs to reset expectations for LAAS. FAA
that augments the Global Positioning System to       2001 Capacity Benchmark Report suggests that LAAS (in conjunction        intended to have CAT I LAAS in 2002, but now
provide terminal approach control guidance. LAAS     with other new technologies and procedures) could boost airport          estimates the first system will be fielded in late
is expected to replace most instrument landing       operations between 10 percent and 17 percent in good weather.            2006. The more demanding CAT II/III (which
systems (ILS), provide all-weather (CAT I/II/III)    Anticipated benefits include:                                            include landing under all weather conditions) is
precision approach services to more airports, and                                                                             now considered a research and development
provide advanced procedures (such as curved and      •   Being an enabling technology for preventing runway incursions.       program with an uncertain end date. Other issues
segmented approaches) to airspace users.                                                                                      include:
                                                     •   Providing precision approach and landing service to all runway       • Airspace users must equip with new avionics
                                                         ends and possibly to adjacent airports with one LAAS system, as           to obtain benefits.
                                                         opposed to requiring a separate landing system at each runway        •   CAT I systems developed through
                                                         end and at each airport.                                                 Government-industry partnerships are not as
                                                                                                                                  mature as expected—much work remains to
                                                     •   Reducing delays due to the ability to land more airplanes in             transition ground systems from prototype to
                                                         reduced visibility conditions, increasing airport acceptance rates       production systems.
                                                         in poor weather.
                                                                                                                              •   Requirements are still evolving for CAT I and
                                                                                                                                  not yet developed for CAT II/III.
                                                     •   Supporting reduced separation between airplanes, increasing both
                                                         throughput and airport acceptance rates.                             •   Meeting LAAS integrity requirements and
                                                                                                                                  ensuring the system is safe for pilots to use are
                                                     •   Enabling new approaches to closely-spaced parallel runways.              the major cost and schedule drivers.
                                                                                                                              •   It is uncertain when capacity-enhancing flight
                                                                                                                                  procedures that complement LAAS will be
                                                                                                                                  available to airspace users.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                  35

                                                         Land and Hold Short Operations (LAHSO)

             Original                               Current                                  Original                                             Current
         Cost Estimate                          Cost Estimate                          Deployment Schedule                               Deployment Schedule
     Funded through procedure               Funded through procedure                        August 2000                                 2004 (Initial Dependent Use)
   development in the Operations          development in the Operations
             account                                account
                                                                                                                                    Status and Key Issues Affecting
               Purpose/Background                                           Anticipated Benefits                                              Implementation
Land and hold short operations include landing and    Implementation of LAHSO can increase airport throughput               LAHSO has been controversial because of safety
holding short of an intersecting runway, an           capacity up to 10 percent by adding arrival capacity. Benefits vary   concerns raised by pilots. Specifically, various pilot
intersecting taxiway, or some other predetermined     with location and airport configuration.                              unions recommended their members refuse LAHSO
point on the runway to permit an operation on an                                                                            clearances due to concerns that the procedures
intersecting runway, taxiway or flight path. This                                                                           established for conducting LAHSO restricted pilot
procedure was previously referred to as                                                                                     options for rejected landing procedures and created
“simultaneous operations on intersecting runways”                                                                           unsafe conditions. Notwithstanding these concerns,
(SOIR).                                                                                                                     FAA and industry continue to pursue LAHSO.
                                                                                                                            Other issues include:

                                                                                                                            •   LAHSO is only permitted during visual flight
                                                                                                                                rules under specific limitations on ceiling and
                                                                                                                                visibility, wind, and pavement conditions.
                                                                                                                            •   Minimum landing distances must be
                                                                                                                                established for all aircraft types.
                                                                                                                            •   Although once authorized, LAHSO is now
                                                                                                                                prohibited at 39 intersecting runways at the
                                                                                                                                19 largest airports due to safety concerns.
                                                                                                                            •   FAA will consider alternative procedures in the
                                                                                                                                future for runways that are not currently
                                                                                                                                authorized for LAHSO.
                                                                                                                            •   Airports conducting LAHSO must provide
                                                                                                                                additional runway lighting systems and
                                                                                                                                signage.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                  36

                                                                National Airspace Redesign (NAR)

           Original                                Current                                     Original                                          Current
         Cost Estimate                          Cost Estimate                            Deployment Schedule                               Deployment Schedule
          $241 million                           $250 million                                   2006                                              2008
     (FAA Operations funding)               (FAA Operations funding)

                                                                                                                                      Status and Key Issues Affecting
                Purpose/Background                                             Anticipated Benefits                                            Implementation
NAR is a multi-year effort to increase the efficiency   In many cases, the full benefit of proposed changes, like new         Work on the choke points initiative (seven
of the National Airspace System (NAS) through the       runways or advanced technologies, cannot be realized without the      geographical areas east of the Mississippi) is only a
re-routing of air traffic, reconfiguration of the       corresponding airspace changes. Benefits include:                     small step to a much larger and more ambitious
Nation’s domestic and oceanic airspace, more                                                                                  effort to revamp the Nation’s airspace. The
efficient air traffic management, and changes in air    •   Increased on-time departures,                                     following issues need to be closely watched:
traffic procedures. NAR encompasses a wide range
of efforts including:                                   •   Improved airport capacity utilization effectiveness,              •   Airspace changes are very complex and
                                                                                                                                  controversial because they have environmental
•   National Choke Points Initiative,                   •   Improved system predictability,                                       impacts.
•   High Altitude Redesign,                             •   Increased effectiveness of top airports,                          •   Because of potential operational changes and
                                                                                                                                  potential environmental impacts, airspace
•   New York/New Jersey/Philadelphia Metropolitan       •   Fewer ground stops and decreased ground delay programs,
    Area Airspace Redesign,                                                                                                       changes require considerable simulation and
                                                                                                                                  modeling, which is expensive.
                                                        •   Improved NAS efficiency by varying arrivals and departures
•   Consolidation of Terminal Airspace Control,             for traffic flows to selected city pairs, and                     •   Airspace changes have ancillary costs and
•   Area Navigation Route (RNAV) Development,                                                                                     impacts related to controller staffing, new
                                                        •   Reduced traffic management restrictions that result from sector       equipment, new sectors, and requirements for
    and                                                     complexity and congestion.
                                                                                                                                  new radio frequencies.
•   RNAV Terminal Arrival and Departure
    Procedures.                                                                                                               •   FAA spends about $20 million annually on
                                                                                                                                  airspace redesign efforts. An additional
                                                                                                                                  $15 million to $30 million annually would be
                                                                                                                                  needed to support OEP initiatives.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                     37

                                                                   Precision Runway Monitor (PRM)

              Original                                                                            Original                                        Current
                                                         Current
          Cost Estimate                                                                     Deployment Schedule                             Deployment Schedule
                                                    Cost Estimate
           $145.8 million                                                                          2002                                            2006
                                                     $145.8 million
           (six locations)
                                                   (cost under review)
                                                                                                                                      Status and Key Issues Affecting
                Purpose/Background                                               Anticipated Benefits                                           Implementation
PRM is a special-purpose secondary radar with a           •   PRM increases landing throughput and can reduce airport          PRM has been under consideration since 1997.
rapid update rate that enables aircraft to approach an        arrival delays. It will only provide benefits at airports that   FAA plans to install PRM at nine locations. The
airport in dual arrival streams with shorter separation       have closely spaced runways.                                     following issues need to be followed:
distances, even in deteriorating weather conditions, at
airports with parallel runways spaced less than           •   PRM permits two aircraft to land simultaneously on parallel      •   Pilots must take special training before flying
4,300 feet apart.                                             runways in airports now constricted because of the proximity         PRM approaches.
                                                              of runways, thus reducing delays.
                                                                                                                               •   PRM is scheduled for commissioning at JFK in
                                                          •   PRM will improve airports’ acceptance rates under poor               October 2003 after a 4-year delay. The delay
                                                              weather conditions.                                                  was due to a variety of reasons including an
                                                                                                                                   extensive analysis to prove the PRM would not
                                                                                                                                   interfere with existing radar, changing runway
                                                                                                                                   thresholds, construction changes, and site and
                                                                                                                                   work hour restrictions.

                                                                                                                               •   The Atlanta PRM was delayed from March
                                                                                                                                   2002 to summer 2006 due to construction
                                                                                                                                   difficulties on a runway extension.

                                                                                                                               •   According to FAA, PRM operations at
                                                                                                                                   Minneapolis and Philadelphia have been
                                                                                                                                   suspended over a Memorandum of
                                                                                                                                   Understanding dispute with the National Air
                                                                                                                                   Traffic Controllers Association.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                        38


                                                                            Build New Runways
                                       Current
                                   Cost Estimate                                                       Original                                        Current
                                      $5.5 billion                                               Deployment Schedule                             Deployment Schedule
  (Only the current cost estimate is provided because the current list of runways has                   2007                                            2008
                            changed from the initial OEP.)
 Airport               Implementation Schedule           Capacity Improvement           Challenges to Runway Completion
                                                             (Percentage)
                      Initial OEP        Current          Visual      Instrument
                      Version 3.0       Estimate
                      (June 2001)      (May 2003)
 Atlanta                  2005            2006              31%             27%         The airport is experiencing problems with: obtaining fill material for the runway; local
                                                                                        authorities’ relocation of existing road, utilities, and navigation aids (NAVAIDS); FAA
                                                                                        funding and installation of NAVAIDS; and FHWA and Georgia DOT design concurrence
                                                                                        on runway support structures for the runway portion that extends over the interstate.
 Boston                  2005             2006               0%              0%         There is public and political opposition, including lawsuits from opposing groups and
                                                                                        organizations. Also, there are concerns with availability of NAVAIDS and maintaining
                                                                                        current operations during construction.
 Cincinnati              2005             2005              26%             26%         The airport is concerned with timely land acquisition.
 Charlotte               2004           Removed             N/A             N/A         The airport is uncertain of the runway schedule because of concern with the financial
                                       from OEP                                         condition of a major carrier.
 Cleveland                N/A           Phase 1:              None Indicated            The airport is experiencing difficulties with relocation of a major primary road and
                                      opened 2002                                       relocation of National Aeronautics and Space Administration facilities with associated
                                      Phase 2: 2004                                     landfills. There is also mitigation associated with a major creek.
 Dallas-Ft. Worth        2007           Removed             N/A             N/A         The airport will not commit to a desired runway configuration.
                                       from OEP
 Denver                  2003             2003              18%             4%          There are no expected challenges to the timely completion of the runway.
 Detroit                 2001          Operational          N/A             N/A         The runway became operational December 2001.
 Dulles                  2007             2008              46%             54%         The airport needs a waiver from FAA for 4,000 foot separation from parallel runway.
 Houston                 2004             2003              35%             37%         There are no expected challenges to the timely completion of the runway.
 Miami                   2003             2003              10%             20%         There are no expected challenges to the timely completion of the runway.
 Minneapolis             2003             2005              29%             26%         Challenges include construction weather delays, the contractor’s ability to carry large bonds
                                                                                        and complete existing contracts on time after unexpected accidents, labor actions, work
                                                                                        force problems, and material shortages.
 Orlando                2003              2003              23%             34%         The airport is experiencing construction weather delays.
 Phoenix              Operational         N/A               N/A             N/A         The runway became operational in October 2000.
 Seattle                2006              2008              52%             46%         The airport expects difficulty in obtaining a U.S. Army Corps of Engineers permit for
                                                                                        wetland fills and in resolving pending citizen lawsuits.
 St. Louis               2006             2006              14%             84%         There are no expected challenges to the timely completion of the runway.
 No. of Runways           15               12

Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                  39

                                                            Traffic Management Advisor (TMA)

                                                                                                                                                 Current
           Original                                Current                                   Original
                                                                                                                                           Deployment Schedule
        Cost Estimate                          Cost Estimate                           Deployment Schedule
                                                                                                                                                FFP1—2001
      FFP1—$224.2 million                    FFP1—$217.6 million                            FFP1—2001
                                                                                                                                                FFP2—2006
      FFP2—$135.5 million                    FFP2—$131.8 million                            FFP2—2006
      Total—$359.7 million                   Total—$349.4 million

 (FFP1 included TMA and passive
   Final Approach Spacing Tool
 collectively known as the Center-
  TRACON Automation System.
    FFP2 only includes TMA.)
                                                                                                                                      Status and Key Issues Affecting
                 Purpose/Background                                         Anticipated Benefits                                                Implementation
TMA was pioneered by the National Aeronautics and    FAA reports that TMA is enhancing airport arrival rates but results      TMA was deployed to seven en-route centers as
Space Administration as part of its Center-TRACON    vary by airport. It has boosted arrival rates at Denver airport by one   part of Free Flight Phase 1 and will be deployed to
Automation System. It helps controllers transition   to two aircraft per hour and Minneapolis by four to five aircraft per    four additional centers as part of Free Flight Phase 2
aircraft from en route to terminal airspace for      hour during arrival peaks. FAA’s analysis of TMA at Minneapolis          between 2003 and 2006. The following issues need
approach and landing. TMA generates routes and       suggests it decreases flight times in the terminal area. Additionally,   to be closely watched:
schedules to meter fixes (geographical position),    FAA notes that TMA allows delays to be taken farther out from the
provides scheduled and estimated times of arrival,   airport and at higher, more efficient altitudes.                         •   To obtain maximum benefits, TMA relies on
assigns runways, and produces sequence lists for
                                                                                                                                  the use of time-based metering to enhance the
arrival traffic.                                     FAA reports that implementation of TMA and “time-based                       flow of air traffic. According to the Free Flight
                                                     metering” (a method for managing periods of high arrival demand              program office, only four centers use time-
                                                     by scheduling the times aircraft cross designated points on the              based metering.
                                                     terminal radar approach control boundary) for the sequencing of
                                                     arriving aircraft (versus the “miles in trail” method) has yielded a     •   TMA relies on complex algorithms and must be
                                                     composite 5 to 8 percent improvement in arrivals at Los Angeles              customized (site adaptation) for each location.
                                                     during inclement weather. The time sequencing of aircraft allows
                                                     controllers to more readily take advantage of unused inter-aircraft      •   To date, work has focused on using TMA as a
                                                     spacing thereby significantly improving efficiency.                          single en route center tool. Additional work
                                                                                                                                  will be required to allow TMA to sequence
                                                                                                                                  aircraft transitioning multiple en route centers.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                                                                                                                                     40

                                                                  User Request Evaluation Tool (URET)

            Original                                    Current                                    Original                                         Current
         Cost Estimate                              Cost Estimate                            Deployment Schedule                              Deployment Schedule
       FFP1—$296.7 million                        FFP1—$297.7 million                             FFP1—2002                                        FFP1—2002
       FFP2—$285.3 million                        FFP2—$287.4 million                             FFP2—2006                                        FFP2—2006
       Total—$582.0 million                       Total—$585.1 million

                                                                                                                                         Status and Key Issues Affecting
                Purpose/Background                                                  Anticipated Benefits                                           Implementation
URET is an automated decision-support tool that             URET systems help controllers shorten flight distances and remove     As part of Free Flight Phase 1, FAA deployed
assists controllers in managing traffic, supporting         altitude restrictions. URET is projected to save more than .5 miles   URET to six of seven planned locations. Under
pilots’ requests for flight plan changes, or detecting      per flight amounting to more than $200 million annually when          Free Flight Phase 2, FAA will deploy URET to all
potential conflicts between aircraft and between            implemented at all 20 en route centers.                               20 en route centers in the United States. The
aircraft and restricted airspace. It uses electronic                                                                              following issues need to be closely watched:
flight data to enhance flight data management
currently accomplished with paper flight strips, which                                                                            •   URET represents some human factor issues for
controllers use to track the position of aircraft. This
                                                                                                                                      controllers because it introduces electronic
capability allows controllers to enter amendments to
                                                                                                                                      flight strips and will impact controller
flight plans directly to the HOST computer (the nerve
center of an en route facility) at the click of a button.                                                                             workload and team work. An important issue
                                                                                                                                      focuses on how controllers will use URET in
                                                                                                                                      conjunction with other new systems, such as
                                                                                                                                      traffic management advisor, and enhanced
                                                                                                                                      weather products.
                                                                                                                                  •   Training has become an important factor in
                                                                                                                                      deploying URET. According to the Free Flight
                                                                                                                                      program office, all six centers have 100 percent
                                                                                                                                      of their controllers trained on URET.
                                                                                                                                      Implementation has been delayed at Atlanta
                                                                                                                                      center because of labor management issues.
                                                                                                                                      FAA now expects Atlanta center will complete
                                                                                                                                      implementation of URET as part of the Phase 2
                                                                                                                                      deployment.
                                                                                                                                  •   URET relies on complex site adaptation—or
                                                                                                                                      “customization”—for each location.




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
                                                                 41




Exhibit B. St atus of Selected Capacit y Enhancing Initiatives
